Roderick and Solange MacArthur Justice Center
160 East Grant Avenue
Chicago, IL 60611
macarthurjusticecenter.org

Daniel M. Greenfield
Appellate Attorney
daniel.greenfield@macarthurjustice.org
daniel-greenfield@law.northwestern.edu
O 312 503 8538
F 312 503 1272

August 25, 2020
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Hamner v. Burls, et al., Case No. 19-1291
Dear Mr. Harris,
Respondents filed their brief in opposition to certiorari in the above-captioned
case on August 14, 2020. The first distribution date for paid petitions following the
14-day grace-period is September 2, 2020.
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully requests
that the Court delay distribution of this petition by 14 days, until the Court’s
September 16, 2020 distribution date. Petitioner requests this additional time to file
a certiorari reply based on substantial disturbances caused by the COVID-19
outbreak. This request will cause the case to be rescheduled from the September 29,
2020 conference to the October 9, 2020 conference.
Respondents do not oppose this request.
Very truly yours,

Daniel M. Greenfield
Counsel for Petitioner

cc: Nicholas Jacob Bronni & Asher Steinberg, Counsel for Respondents

